INDEX TO APPENDICES for Petition for Writ of Certiorari
^“Thisrlndex is also in TableTof"Contents)'

APPENDIX A

SUMMARY ORDER AND JUDGMENT, U.S. court of appeals,
for the Second Circuit

APPENDIX B

MANDATE, U. S. court of appeals, Second Circuit

APPENDIX C

AMENDED JUDGMENT in Civil Case, U.S. district court NDNY

APPENDIX D

ORDER, before Judgment denial, U. S. Supreme Court

APPENDIX E

ORDER: U. S. court of appeals, Second Circuit to United States

APPENDIX F

JUDGMENT in Civil Case, U.S. district court NDNY

APPENDIX G

DECISION AND ORDER, U.S. district court NDNY

APPENDIX H

REPORT-RECOMMENDATION (entirety)U. S.district court

APPENDIX I

LETTER from United States to Second Circuit

APPEND IXJ

CLERK’S CERTIFICATION to Second Circuit re: proceed IFP

APPENDIX K

OBJECTIONS

APPENDIX L

GENERAL DOCKET, U.S. district court NDNY

APPENDIX M

COMPLAINT, filed February 12, 2020, entered next day.

20-3427-cv
Shields v. United States.

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED
BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT'S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE
NOTATION "SUMMARY ORDER"). A PARTY CITING A SUMMARY ORDER MUST SERVE A
COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held
at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New
York, on the 4th day of June, two thousand twenty-one.
PRESENT:

GUIDO CALABRESI,
WILLIAM J. NARDINI,
Circuit Judges,
GARY S. KATZMANN,
Judge.'

Antonia W. Shields,
Plaintiff-Appellan t,
v.

No. 20-3427

United States,
Defendant-Appellee.

For Plaintiff-Appellant:

Antonia W. Shields, pro se,
Saratoga Springs, NY

For Defendant-Appellee:

No appearance

’ Judge Gary S. Katzmann, of the United States Court of International Trade, sitting by designation.

At>P£H0i*A.

Appeal from a judgment of the United States District Court for the Northern
District of New York (Glenn T. Suddaby, C.J.; Christian F. Hummel, M.J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the judgment of the district court is AFFIRMED, but the case is
REMANDED for the court to amend its judgment and enter dismissal without prejudice.
Antonia W. Shields, pro se, sued the United States, asserting that the district court's
dismissal of a prior lawsuit under 28 U.S.C. § 1915 and a local rule violated 28 U.S.C. § 453
because the court applied a higher standard of review to her allegations based on her in
forma pauperis status and mislabeled her a "prisoner."

The district court sua sponte

dismissed the complaint with prejudice under 28 U.S.C. § 1915(e)(2)(B), holding that it
was barred by sovereign immunity and failed to state a claim. The court denied leave
to amend as futile. Shields now appeals the district court's judgment and moves for a
stay of this Court's mandate so she can file a petition for a writ of certiorari in the U.S.
Supreme Court. We assume the reader's familiarity with the case.
We review de novo a district court's sua sponte dismissal of a complaint under 28
U.S.C. § 1915(e)(2)(B) and its determination of its subject matter jurisdiction, including
whether sovereign immunity exists.

Zaleski v. Burns, 606 F.3d 51, 52 (2d Cir. 2010)

(dismissal of complaint); Filler v. Hanvit Bank, 378 F.3d 213, 216 (2d Cir. 2004) (subject
matter jurisdiction determination). A district court must construe pro se filings "liberally

2

and interpret them 'to raise the strongest arguments that they suggest.'" Kirkland v.
Cablevision Sys., 760 F.3d 223, 224 (2d Cir. 2014) (quoting Burgos v. Hopkins, 14 F.3d 787,
790 (2d Cir. 1994)).
The district court correctly held that sovereign immunity deprived it of subject
matter jurisdiction over Shields's complaint. We begin with two points of law: first,
"[t]he United States, as sovereign, is immune from suit unless it waives immunity and
consents to be sued," Cooke v. United States, 918 F.3d 77, 81 (2d Cir. 2019); and second, the
plaintiff has the burden of showing that subject matter jurisdiction exists, Lunney v. United
States, 319 F.3d 550, 554 (2d Cir. 2003). Shields never alleged in her complaint that the
United States waived sovereign immunity and consented to be sued pursuant to the
statutes under which she asserted claims (28 U.S.C. §§ 453 and 1915). Mere references
to sovereign immunity in her complaint and in her objections to the magistrate's report
and recommendation failed to establish subject matter jurisdiction, which requires "a
clear statement from the United States waiving sovereign immunity."

United States v.

White Mountain Apache Tribe, 537 U.S. 465, 472 (2003). Shields's argument on appeal
that the district court had jurisdiction because she raised a federal question—is also
unavailing. While she may have raised a federal question, she asserted her claim against
the federal government, which is immune from suit and has not waived its immunity.
We decline to consider Shields's other arguments on sovereign immunity—that 28

3

U.S.C. § 1346(a)(2) waives sovereign immunity here and that sovereign immunity
violates her right to petition the government under the First Amendment—both of which
she raises for the first time on appeal. See Greene v. United States, 13 F.3d 577,586 (2d Cir.
1994).2
However, while the district court properly held that it lacked subject matter
jurisdiction over Shields's complaint, it erred in dismissing the complaint with prejudice.
Dismissals for lack of subject matter jurisdiction must be without prejudice. Katz v.
Donna Karan Co., L.L.C., 872 F.3d 114,121 (2d Cir. 2017).
We deem abandoned any argument that the district court erred in denying Shields
leave to amend her complaint because she does not raise this point in her appellate brief.
See LoSacco v. City of Middletown, 71 F.3d 88, 92-93 (2d Cir. 1995).
Finally, we deny Shields's motion to stay our mandate pending her anticipated
petition to the Supreme Court for a writ of certiorari on the question of whether 28
U.S.C. § 1915(g) violates the First Amendment. Federal Rule of Appellate Procedure
41(d)(1) requires such a motion to "show that the petition would present a substantial
question and that there is good cause for a stay."

Given the lack of subject matter

jurisdiction over her complaint, her failure to raise this question before the district court,
and the fact that her claims are undeveloped, we hold that Shields fails to meet her

2 We likewise do not consider Shields's argument raised for the first time on appeal that the district court
violated her equal protection rights when it dismissed her lawsuit under 28 U.S.C. § 1915.

4

burden for such relief.
We have considered Shields's remaining arguments and find them to be without
merit. Accordingly, we AFFIRM the judgment of the district court, REMAND for entry
of an amended judgment dismissing the case without prejudice, and DENY Shields's
motion for a stay.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

5

m

20-3427-cv
item

£253

m '.dMtai-es3

us REST

UNMEDISTASs&SagOURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED
BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT'S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE
NOTATION "SUMMARY ORDER"). A PARTY CITING A SUMMARY ORDER MUST SERVE A
COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held
at the Thurgood Marshall United States Courthouse, 40.Foley Square, in the City of New
York, on the 4th day of June, two thousand twenty-one.
PRESENT:

GUIDO CALABRESI,
WILLIAM J. NARDINI,
Circuit Judges,
GARY S. KATZMANN,

Judge.'

Antonia W. Shields,
Plaintiff-Appellant,
No. 20-3427 -

v.
United States,
Defendant-Appellee.

For Plaintiff-Appellant:

Antonia W. Shields, pro se,
Saratoga Springs, NY

For Defendant-Appellee:

No appearance

* Judge Gary S. Katzmanri, of the United States Court of International Trade, sitting by designation.

MANDATE ISSUED ON 07/26/2021

APPertfclx e.

Appeal from a judgment of the United States District Court for the Northern
District of New York (Glenn T. Suddaby, C./.; Christian F. Hummel, M.J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the judgment of the district court is AFFIRMED, but the case is
REMANDED for the court to amend its judgment and enter dismissal without prejudice.
Antonia W. Shields, pro se, sued the United States, asserting that the district court's
dismissal of a prior lawsuit under 28 U.S.C. § 1915 and a local rule violated 28 U.S.C. § 453
because the court applied a higher standard of review to her allegations based on her in
forma pauperis status and mislabeled her a "prisoner."

The district court sua sponte

dismissed the complaint with prejudice under 28 U.S.C. § 1915(e)(2)(B), holding that it
was barred by sovereign immunity and failed to state a claim. The court denied leave
to amend as futile. Shields now appeals the district court's judgment and moves for a
stay of this Court's mandate so she can file a petition for a writ of certiorari in the U.S.
Supreme Court. We assume the reader's familiarity with the case.
We review de novo a district court's sua sponte dismissal of a complaint under 28
U.S.C. § 1915(e)(2)(B) and its determination of its subject matter jurisdiction, including
whether sovereign immunity exists.

Zaleski v. Burns, 606 F.3d 51, 52 (2d Cir. 2010)

(dismissal of complaint); Filler v. Hanvit Bank> 378 F.3d 213, 216 (2d Cir. 2004) (subject
matter jurisdiction determination). A district court must construe pro se filings "liberally

2

and interpret them 'to raise the strongest arguments that they suggest.'" Kirkland v.
Cablevision Sys., 760 F.3d 223/224 (2d Cir. 2014) (quoting Burgos v. Hopkins, 14 F.3d 787,
790 (2d Cir. 1994)).
The district court correctly held that sovereign immunity deprived it of subject
matter jurisdiction over Shields's complaint. We begin with two points of law: first,
"[t]he United States, as sovereign, is immune from suit unless it waives immunity and
consents to be sued," Cooke v. United States, 918 F.3d 77, 81 (2d Cir. 2019); and second, the
plaintiff has the burden of showing that subject matter jurisdiction exists, Lunney VvUnited
States, 319 F.3d 550, 554 (2d Cir. 2003). Shields never alleged in her complaint that the
United States waived sovereign immunity and consented to be sued pursuant to the
statutes under which she asserted claims (28 U.S.C. §§ 453 and 1915). Mere references
to sovereign immunity in her complaint and in her objections to the magistrate's report
and recommendation failed to establish subject matter jurisdiction, which requires "a
clear statement from the United States waiving sovereign immunity." United States v.
White Mountain Apache Tribe, 537 U.S. 465, 472 (2003). Shields's argument on appeal—
that the district court had jurisdiction because she raised a federal question—is also
unavailing. While she may have raised a federal question, she asserted her claim against
the federal government, which is immune from suit and has not waived its immunity.
We decline to consider Shields's other arguments on sovereign immunity—that 28

3

U.S.C. § 1346(a)(2) waives sovereign immunity here and that sovereign immunity
violates her right to petition the government under the First Amendment—both of which
she raises for the first time on appeal. See Greene v. United States, 13 F.3d 577,586 .(2d Cir.
1994).2
However, while the district court properly held that it lacked subject matter
jurisdiction over Shields's complaint, it erred in dismissing the complaint with prejudice.
Dismissals for lack of subject matter jurisdiction must be without prejudice. Katz v.
Donna Karan Co., L.L.C., 872 F.3d 114,121 (2d Cir. 2017).
We deem abandoned any argument that the district court erred in denying Shields
leave to amend her complaint because she does not raise this point in her appellate brief.
See LoSacco v. City of Middletown, 71 F.3d 88, 92-93 (2d Cir. 1995).
Finally, we deny Shields's motion to stay our mandate pending her anticipated
petition to the Supreme Court for a writ of certiorari on the question of whether 28
U.S.C. § 1915(g) violates the First Amendment. Federal Rule of Appellate Procedure
41(d)(1) requires such a motion to "show that the petition would present a substantial
question and that there is good cause for a stay."

Given the lack of subject matter

jurisdiction over her complaint, her failure to raise this question before the district court,
and the fact that her claims are undeveloped, we hold that Shields fails to meet her

2 We likewise do not consider Shields's argument raised for the first time on appeal that the district court
violated her equal protection rights when it dismissed her lawsuit under 28 U.S.C. § 1915.

4

burden for such relief.
We have considered Shields's remaining arguments and find them to be without
merit. Accordingly, we AFFIRM the judgment of the district court, REMAND for entry
of an amended judgment dismissing the case without prejudice, and DENY Shields's
motion for a stay.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

A True Copy
Catherine O’Hagan W

WR

irk

United States Coupf^A^eaT£,\Second Circuit
CMT

Case l:20-cv-00152-GTS-CFH Document 18 Filed 07/26/21 Page lot2

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK
AMENDED JUDGMENT IN A CIVIL CASE
ANTONIA W. SHIELDS
v.

1:20-CV-152 (GTS/CFH)

UNITED STATES
Decision by Court. This action came to trial or hearing before the Court. The issues
have been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that, pursuant to the Mandate issued on July 26,
2021 (Dkt. No. 17) by the United States Court of Appeals for the Second Circuit,
Magistrate Judge Hummel’s Report-Recommendation (Dkt. No. 5) is ACCEPTED and
ADOPTED in its entirety; and Plaintiffs Complaint (Dkt. No. 1) is DISMISSED without
prejudice. The Clerk is directed to CLOSE this action.
All of the above pursuant to the Mandate issued on July 26, 2021 by the United States
Court of Appeals for the Second Circuit. Dkt. No. 17.
DATED: July 26, 2021

siQfbhelly Ok(utter
Shelly Muller
Courtroom Deputy Clerk

AfPtNblx C >

»

Case l:20-cv-00152-GTS-CFH Document 18 Filed 07/26/21 Page 2 of 2

Federal Rules of Appellate Procedure
Rule 4. Appeal as of Right
(a) Appeal in a Civil Case.
1.(1) Time for Filing a Notice ofAppeal.
(A) In a civil case, except as provided in Rules 4(a)(1)(B), 4(a)(4), and
4(c), the notice of appeal required by Rule 3 must be filed with the
district clerk within 30 days after entry of the judgment or order
appealed from.
(B) The notice of appeal may be filed by any party within 60 days after
entry of the judgment or order appealed from if one of the parties is:
(1) the United States;
(ii) a United States agency;
(iii) a United States officer or employee sued in an official capacity; or
(iv) a current or former United States officer or employee sued in an
individual capacity for an act or omission occurring in connection with
duties performed on the United States' behalf— including all instances
in which the United States represents that person when the judgment
or order is entered or files the appeal for that person.
(C) An appeal from an order granting or denying an application for a
writ of error coram nobis is an appeal in a civil case for purposes of
Rule 4(a).
(2) Filing Before Entry ofJudgment. A notice of appeal filed after the
court announces a decision or order—but before the entry of the
judgment or order—is treated as filed on the date of and after the entry.
(3) Multiple Appeals. If one party timely files a notice of appeal, any
other party may file a notice of appeal within 14 days after the date
when the first notice was filed, or within the time otherwise prescribed
by this Rule 4(a), whichever period ends later.
(4) Effect of a Motion on a Notice ofAppeal.
(A) If a party timely files in the district court any of the following
motions under the Federal Rules of Civil Procedure, the time to file an
appeal runs for all parties from the entry of the order disposing of the
last such remaining motion:
(i) for judgment under Rule 50(b);
(ii) to amend or make additional factual findings under Rule 52(b),
whether or not granting the motion would alter the judgment;
(iii) for attorney's fees under Rule 54 if the district court extends the
time to appeal under Rule 58;
(iv) to alter or amend the judgment under Rule 59;
(v) for a new trial under Rule 59; or
(vi) for relief under Rule 60 if the motion is filed no later than 28 days
after the judgment is entered.
(B)(i) If a party files a notice of appeal after the court announces or
enters a judgment—but before it disposes of any motion listed in Rule
4(a)(4)(A)—the notice becomes effective to appeal a judgment or
order, in whole or in part, when the order disposing of the last such
remaining motion is entered.
(ii) A party intending to challenge an order disposing of any motion
listed in Rule 4(a)(4)(A), or a judgment's alteration or amendment
upon such a motion, must file a notice of appeal, or an amended notice

of appeal—in compliance with Rule 3(c)—within the time prescribed
by this Rule measured from the entry of the order disposing of the last
such remaining motion.
(5) Motion for Extension of Time.
(A) The district court may extend the time to file a notice of appeal
if:
(i) a party so moves no later than 30 days after the time prescribed by
this Rule 4(a) expires; and
(ii) regardless of whether its motion is filed before or during the 30
days after the time prescribed by this Rule 4(a) expires, that party
shows excusable neglect or good cause.
(B) A motion filed before the expiration of the time prescribed in
Rule 4(a)(1) or (3) may be ex parte unless the court requires
otherwise. If the motion is filed after the expiration of the prescribed
time, notice must be given to the other parties in accordance with
local rules.
(C) No extension under this Rule 4(a)(5) may exceed 30 days after
the prescribed time or 14 days after the date when the order granting
the motion is entered, whichever is later.
(6) Reopening the Time to File an Appeal. The district court may
reopen the time to file an appeal for a period of 14 days after the date
when its order to reopen is entered, but only if all the following
conditions are satisfied:
(A) the court finds that the moving party did not receive notice under
Federal Rule of Civil Procedure 77 (d) of the entry of the judgment
or order sought to be appealed within 21 days after entry;
(B) the motion is filed within 180 days after the judgment or order is
entered or within 14 days after the moving party receives notice under
Federal Rule of Civil Procedure 77 (d) of the entry, whichever is
earlier; and
(C) the court finds that no party would be prejudiced.
(7) Entry Defined.
(A) A judgment or order is entered for purposes of this Rule 4(a):
(i) if Federal Rule of Civil Procedure 58 (a) does not require a
separate document, when the judgment or order is entered in the civil
docket under Federal Rule of Civil Procedure 79 (a); or
(ii) if Federal Rule of Civil Procedure 58 (a) requires a separate
document, when the judgment or order is entered in the civil docket
under Federal Rule of Civil Procedure 79(a) and when the earlier of
these events occurs:
• the judgment or order is set forth on a separate document, or
• 150 days have run from entry of the judgment or order in the civil
docket under Federal Rule of Civil Procedure 79 (a).
(B) A failure to set forth a judgment or order on a separate document
when required by Federal Rule of Civil Procedure 58 (a) does not
affect the validity of an appeal from that judgment or order.

Supreme Court of the United States
Office of the Clerk
-——Washing-ton,-DC—20543-000-1——
March 8, 2021

Scott S. Harris
Clerk of the Court
(202) 479-3011

Ms. Antonia W. Shields
P.O. Box 195
Saratoga Springs, NY 12866
Re: Antonia W. Shields
v. United States
No. 20-6860
Dear Ms. Shields:
The Court today entered the following order in the above-entitled case:
The petition for a writ of certiorari before judgment is denied.

Sincerely,

Scott S. Harris, Clerk

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
10th day of December, two thousand twenty.
ORDER
Antonia W. Shields,
Docket No. 20-3427
Plaintiff - Appellant,
v.
United States,
Defendant - Appellee.
This appeal has been taken from an order that dismissed the complaint. The grounds of
dismissal make this appeal eligible for assignment to the Court’s Expedited Appeals Calendar
under Local Rule 31.2(b), and the appeal is hereby placed on that calendar.
Appellant’s principal brief has already been filed. Appellee’s brief is due no later than
January 14, 2021, 35 days from the date of this order. Appellant’s reply brief is due no later than
14 days after Appellee’s brief is filed. Absent extraordinary circumstances, the Court will not
grant a motion to extend the time to file a brief. See Local Rule 27.1(f)(1).
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

APPEMblX £ ,

Case l:20-cv-00152-GTS-CFH Document 11 Filed 09/11/20 Page 1 of 2

m THE UNITED STATES DISTRICT COURT
KFOR THE NORTHERN DISTRICT OF NEW YORK

•

JUDGMENT IN A CIVIL CASE

ANTONIA Wr SHIELDS
v.

1:20-CV-152 (GTS/CFH)

UNITED STATES
Decision by Court. This action came to trial or hearing before the Court. The issues
have been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that, pursuant to the Decision and Order issued on
September If, 2020 (Dkt. No. 10) by the Honorable Glenn T. Suddaby, that Magistrate
Judge Hummel’s Report-Recommendation (Dkt. No. 5) is ACCEPTED and ADOPTED in its
entirety. Plaintiffs Complaint (Dkt. No. 1) is DISMISSED with prejudice and without prior
leave to amerid pursuant to 28 U.S.C. § 1915(e)(2)(B). The Clerk is directed to CLOSE
this action.
All of the above pursuant to the Decision and Order issued by the Honorable Glenn T.
Suddaby, dated September 11, 2020. Dkt. No. 10.
DATED: September 11,2020
Clerk of Court
l

s/ Q&kelly oMuller
Shelly Muller
Courtroom Deputy Clerk

;;

i

APPENDIX

:.
i

Case l:20-cv-00152-GTS-CFH Document 11 Filed 09/11/20 Page 2 of 2

Federal Rules of Appellate Procedure
Rule 4. Appeal as of Right
(a) Appeal in a Civil Case.
1. (1) Time for Filing a Notice ofAppeal.
(A) In a civil case, except as provided in Rules 4(a)(1)(B), 4(a)(4), and
4(c), the notice of appeal required by Rule 3 must be filed with the
district clerk within 30 days after entry of the judgment or order
appealed from.
(B) The notice of appeal may be filed by any party within 60 days after
entry of the judgment or order appealed from if one of the parties is:
(1) the United States;
(ii) a United States agency;
(iii) a United States officer or employee sued in an official capacity; or
(iv) a current or former United States officer or employee sued in an
individual capacity for an act or omission occurring in connection with
duties performed on the United States'behalf—including all instances
in which the United States represents that person when the judgment
or order is entered or files the appeal for that person.
(C) An appeal from an order granting or denying an application for a
writ of error coram nobis is an appeal in a civil case for purposes of
Rule 4(a).
(2) Filing Before Entry ofJudgment. A notice of appeal filed after the
court announces a decision or order—but before the entry of the
j udgment or order—is treated as filed on the date of and after the entry.
(3) Multiple Appeals. If one party timely files a notice of appeal, any
other party may file a notice of appeal within 14 days after the date
when the first notice was filed, or within the time otherwise prescribed
by this Rule 4(a), whichever period ends later.
(4) Effect of a Motion on a Notice ofAppeal.
(A) If a party timely files in the district court any of the following
motions under the Federal Rules of Civil Procedure, the time to file an
appeal runs for all parties from the entry of the order disposing of the
last such remaining motion:
(i) for judgment under Rule 50(b);
iii) to amend or make additional factual findings under Rule 52(b),
whether or not granting the motion would alter the judgment;
(iii) for attorney's fees under Rule 54 if the district court extends the
time to appeal under Rule 58;
I iv) to alter or amend the judgment under Rule 59;
(v) for a new trial under Rule 59; or
(\ i) for relief under Rule 60 if the motion is filed no later than 28 days
after the judgment is entered.

of appeal—in compliance with Rule 3(c)1—within the time prescribed
by this Rule measured from the entry of the order disposing of the last
such remaining motion.
(5) Motion for Extension of Time.
(A) The district court may extend the time to file a notice of appeal
if:
(i) a party so moves no later than 30 days after the time prescribed by
this Rule 4(a) expires; and
(ii) regardless of whether its motion is filed before or during the 30
days after the time prescribed by this Rule 4(a) expires, that parly
shows excusable neglect or good cause.
(B) A motion filed before the expiration of the time prescribed in
Rule 4(a)(1) or (3) may be ex parte unless the court requires
otherwise. If the motion is filed after the expiration of the prescribed
time, notice must be given to the other parties in accordance with
local rules.
(C) No extension under this Rule 4(a)(5) may exceed 30 days after
the prescribed time or 14 days after the date when the order granting
the motion is entered, whichever is later.
(6) Reopening the Time to File an Appeal. The district court may
reopen the time to file an appeal for a period of 14 days after the date
when its order to reopen is entered, ’out only if all the following
conditions are satisfied:
(A) the court finds that the moving party did not receive notice under
Federal Rule of Civil Procedure 77 (d; of the entry of the judgment
or order sought to be appealed within
days after entity;
(B) the motion is filed within 180 days after the judgment or order is
entered or within 14 days after the moving party receives notice under
Federal Rule of Civil Procedure 77 (d) of the entrv, whichever is
earlier; and
(C) the court finds that no party would be prejudiced.
(7) Entry Defined.
(A) A judgment or order is entered for puqiioses of this Rule 4(a):
(i) if Federal Rule of Civil Procedure 58 (a) docs not require a
separate document, when the judgment or order is entered in the civil
docket under Federal Rule of Civil Procedure 79 (a): or
(ii) if Federal Rule of Civil Proceduie 58 (a) requires a separate
document, when the judgment or order is entered in the civil docket
under Federal Rule of Civil Procedure 79(a) and when the earlier of
these events occurs:

(Bi(i) If a party files a notice of appeal after the court announces or
enters a judgment—but before it disposes of any motion listed in Rule
4(a)(4)(A)—the notice becomes effective to appeal a judgment or
order, in whole or in part, when the order disposing of the last such
remaining motion is entered.

• 150 days have run from entry of the udgment or order in the civil
docket under Federal Rule of Civil Procedure 79 (a).

( ii) A party intending to challenge an order disposing of any motion
listed m Rule 4(a)(4)(A), or a judgment's alteration or amendment
upon such a motion, must file a notice of appeal, or an amended notice

(B) A failure to set forth a judgment or order on a separate document
when required by Federal Rule of Ci\il Procedure 58 (a) does not
affect the validity of an appeal from that judgment or order.

• the judgment or order is set forth on a separate document, or

Case l:20-cv-00152-GTS-CFH Document 10 Filed 09/11/20 Page 1 of 6

i

UNITED STATES DISTRICT COURT
NOR-T-HtRN-ui Sddl-f€T-©p-N-&W-Y©RK
•. i

ANTONIA W: SHIELDS,
Plaintiff,
U20-CV-0152
(GTS/CFH)

v.
UNITED STAVES,
i i

Defendant.

; r

APPEARANCES:
ANTONIA W. SHIELDS
Plaintiff, Pfo Se
P.O. Box 195 i.
Saratoga Springs, New York 12866
GLENN T. SUODAB Y, Chief United States District Judge
DECISION and ORDER
Currently before the Court, in this pro se civil rights action filed by Antonia W. Shields
("‘Plaintiff’) against the United States (“Defendant”), are United States Magistrate Judge
Christian F. Hummel’s Report-Recommendation recommending that Plaintiffs Complaint be
dismissed with prejudice and without prior leave to amend pursuant to 28 U.S.C. § 1915, and
Plaintiffs Objection to the Report-Recommendation. (Dkt. Nos. 5, 6.) For the reasons set
forth below, the Report-Recommendation is accepted and adopted in its entirety.
I.

RELEVANT BACKGROUND
A.

Magistrate Judge Hummel’s Report-Recommendation
r:

APPENDIX <$+

Case l:20-cv-00152-GTS-CFH Document 10 Filed 09/11/20 Page 2 of 6
*?

. [
t

Generally, in his Report-Recommendation, Magistrate Judge Hummel rendered the
following three findings of fact and conclusions of law: (1) Plaintiffs claims against the United
States should be dismissed because they are barred by the doctrine of sovereign immunity,
depriving the Court of subject-matter jurisdiction over them; (2) even if the Court were to review
the merits of Plaintiff s claims, the Court would find that those claims are without merit, because
28 U.S.C. § 1915 andN.D.N.Y. Local Rule 5.4 (a) apply equally to both inmates arid
non-inmates, and (b) ensure that indigent persons have access to the courts (without subjecting
their pleadings to a standard of review that is different from the standard governing pleadings by
claimants who have paid the statutory filing fee); and (3) because the defects in Plaintiffs claims
y\

are substantive and not merely formal, they should be dismissed in their entirety with prejudice
and without a prior opportunity to amend. (Dkt. No. 5, at Part II.C.)
B.

’} '

Plaintiffs Objection to the Report-Recommendation

Generally, in her Objections, Plaintiff asserts the following two challengesjto the
Report-Recommendation: (1) Plaintiff did not consent to review of her claims by a <U.S.
Magistrate Judge; and (2) because Plaintiff is a free citizen and not a prisoner, the standard of
review under 28 U.S.C. § 1915 conflicts with 28 U.S.C. § 453 which provides forTequal justice
to all citizens, rich or poor'' (and therefore, judgment cannot be entered against her 4s a plaintiff
proceeding in forma pauperis). (Dkt. No. 6.)
II.

.j

STANDARD OF REVIEW
When a specific objection is made to a portion of a magistrate judge's report-

recommendation, the Court subjects that portion of the report-recommendation to <wr/e novo
i

\

2

Case l;20-cv-00152-GTS-CFH

Document 10 Filed 09/11/20

Page 3 of 6

review. Fed. L. Civ. P. 72(b)(2); 28 U.S.C. § 636(b)(1)©). To be "specific,” the objection
must, with particularity, “identify [1] the portions of the proposed findings, recommendations, or
report to which it has an objection and [2] the basis for the objection.” N.D.N.Y. L.R. 72. I©).1
When performing such a de novo review, “[t]he judge may . . . receive further evidence. . . .” 28
U.S.C. § 636(b'•(!). However, a district court will ordinarily refuse to consider evidentiary
material that cculd have been, but was not, presented to the magistrate judge in the first
instance.2 Similarly, a district court will ordinarily refuse to consider argument that could have
been, but was not, presented to the magistrate judge in the first instance. See Zhao v. State Univ.
of N. Y., 04-CV-0210, 2011 WL 3610717, at *1 (E.D.N.Y. Aug. 15, 2011) (“[I]t is established
law that a district judge will not consider new arguments raised in objections to a magistrate
judge's report and recommendation that could have been raised before the magistrate but were

1
See alsi Mario v. P&C Food Markets, Inc., 313 F.3d 758, 766 (2d Cir. 2002) (“Although
Mario filed objections to the magistrate's report and recommendation, the statement with respect
to his Title VII claim was not specific enough to preserve this claim for review. The only
reference made to the Title VII claim was one sentence on the last page of his objections, where
he stated that it was error to deny his motion on the Title VII claim ‘[f]or the reasons set forth in
Plaintiffs Merr brandum of Law in Support of Motion for Partial Summary Judgment.’ This bare
statement, dev< id of any reference to specific findings or recommendations to which he objected
and why, and unsupported by legal authority, was not sufficient to preserve the Title VII
claim.”).
2
See Paddington Partners v. Bouchard, 34 F.3d 1132, 1137-38 (2d Cir. 1994) (“In
objecting to a magistrate's report before the district court, a party has no right to present further
testimony whe . it offers no justification for not offering the testimony at the hearing before the
magistrate.”) [internal quotation marks and citations omitted]; Pan Am. World Airways, Inc. v.
Int'l Bhd. ofTe vnsters, 894 F.2d 36, 40, n.3 (2d Cir. 1990) (finding that district court did not
abuse its discre:ion in denying plaintiffs request to present additional testimony where plaintiff
“offered no jusvification for not offering the testimony at the hearing before the magistrate”); cf.
U. S. v. Rciddaty 447 U.S. 667, 676, n.3 (1980) (“We conclude that to construe § 636(b)(1) to
require the dist *ict court to conduct a second hearing whenever either party objected to the
magistrate's credibility findings would largely frustrate the plain objective of Congress to
alleviate the increasing congestion of litigation in the district courts.”); Fed. R. Civ. P. 72(b),
Advisory Committee Notes: 1983 Addition (“The term ;de novo’ does not indicate that a
secondary evidentiary hearing is required.”).
3

Case l:20-cv-00152-GTS-CFH

I

Document 10 Filed 09/11/20 Page 4 of 6
; t

}> '•

nx4.-iIL0nlemaLquata.tjm m

citation omittecO: Hubbard v. Kelley. 752 F. Supp.2d 311.
:

i

• 312-13 (W.D.N.Y. 2009) (“In this circuit, it is established law that a district judge will not
;i
consider new arguments raised in objections to a magistrate judge's report and recommendation
that could have been raised before the magistrate but were not.”) (internal quotation marks
omitted).
>^

When only a general objection is made to a portion of a magistrate judge's
report-recommendation, the Court subjects that portion of the report-recommendation to only a
clear error review. Fed. R. Civ. P. 72(b)(2),(3); Fed. R. Civ. P. 72(b), Advisory Committee
■.i1

Notes: 1983 Addition; see also Brown v. Peters, 95-CV-1641, 1997 WL 599355, at *2-3
>7 t

(N.D.N.Y. Sept. 22, 1997) (Pooler, J.) [collecting cases], affd without opinion, 175>F.3d 1007
u ■

(2d Cir. 1999). Similarly, when an objection merely reiterates the same arguments made by the

n

objecting party in its original papers submitted to the magistrate judge, the Court subjects that
portion of the report-recommendation challenged by those arguments to only a clear error
review. 3 Finally, when no objection is made to a portion of a report-recommendation, the Court
subjects that portion of the report-recommendation to only a clear error review. Fed. R. Civ. P.
72(b), Advisory Committee Notes: 1983 Addition. When performing such a “clear error”
review, “the court need only satisfy itself that there is no clear error on the face ofithe record in

3

See Mario, 313 F.3d at 766 (“Merely referring the court to previously filed papers or
arguments does not constitute an adequate objection under either Fed. R. Civ. P. 72(b) or Local
Civil Rule 72.3(a)(3).”); Camardo v. Gen. Motors Hourly-Rate Emp. Pension Plan, 806 F. Supp.
380, 382 (W.D.N.Y. 1992) (explaining that court need not consider objections that merely
constitute a "rehashing" of the same arguments and positions taken in original papers submitted
to the magistrate judge); accord, Praileau v. Cnty. of Schenectady, 09-CV-0924, 2010 WL
3761902, at *1, n.l (N.D.N.Y. Sept. 20, 2010) (McAvoy, J.); Hickman exrel. M.A.H. v. Astrue.
07-CV-l 077, 2010 WL 2985968, at *3 & n.3 (N.D.N.Y. July 27, 2010) (Mordue, G.L): Almonte
v. N.Y.S. Div. of Parole, 04-CV-0484, 2006 WL 149049, at *4 (N.D.N.Y. Jan. 18,2006) (Sharpe,
J.).
4
I,
;

Case 1' 20-cv-00152-GTS-CFH Document 10 Filed 09/11/20 Page 5 of 6

order to accept the recommendation.” ld.A
After conducting the appropriate review, the Court may “accept, reject, or modify, in
whole or in part, the findings or recommendations made by the magistrate judge.” 28 U.S.C. §
*/

636(b)(l)(C)).j
III.

ANALYSIS
For the Sake of brevity, the Court will assume that the second challenge asserted in

Plaintiffs Objections is not merely a repetition of a claim asserted in her Complaint (which has
already been considered and rejected by Magistrate Judge Hummel). (Compare Dkt. No. 6 with
Dkt. No. 1.) Even assuming that fact, after carefully reviewing the relevant papers herein,
including Magistrate Judge Hummel’s thorough Report-Recommendation, the Court can find no
error whatsoever in those portions of the Report-Recommendation to which Plaintiff has
specifically objected, and no clear-error in those portions of the Report-Recommendation to
which Plaintiff has not specifically objected: Magistrate Judge Hummel employed the proper
standards, accurately recited the facts, and reasonably applied the law to those facts. As a result,
■?:

the Report-Recommendation is accepted and adopted in its entirety for the reasons set forth
therein, and Plaintiffs Complaint is dismissed with prejudice and without prior leave to amend
for the reasons set forth in the Report-Recommendation. To those reasons, the Court would add
only that, in this District, Magistrate Judges are permitted to issue Report-Recommendations
regarding the pleading sufficiency of claims by litigants proceeding pro se (and litigants
proceeding in forma pauperis) pursuant to, among other things, 28 U.S.C. 636(b)(1)(B), which
4

See alst Batista v. Walker, 94-CV-2826, 1995 WL 453299, at *1 (S.D.N.Y. July 31,
1995) (Sotoma/or, J.) (“I am permitted to adopt those sections of [a magistrate judge's] report to
which no specific objection is made, so long as those sections are not facially erroneous.”)
(internal quotation marks and citations omitted).
5

Case l:20-cv-00152-GTS-CFH Document 10 Filed 09/11/20 Page 6 of 6

does not require the consent af the-parties.
ACCORDINGLY, it is
ORDERED that Magistrate Judge Hummel’s Report-Recommendation (DRt. No. 5) is
ACCEPTED and ADOPTED in its entirety; and it is further
ORDERED that Plaintiffs Complaint (Diet. No. 1) is DISMISSED with prejudice and
without prior leave to amend pursuant to 28 U.S.C. § 1915(e)(2)(B).
Dated: September 11, 2020
Syracuse, New York

Glenn T. Suddaby
Chief U.S. District Judge

6

Case l:20-cv-00152-GTS-CFH Document 5 Filed 04/30/20 Page 1 of 9

UNITED STATES DISTRICT COURT
NORT H ER N~D ISTR1CT OF'N EW'YORK'

ANTONIA W. SHIELDS,
Plaintiff,

v.
o

No. 1:20-CV-152
(GTS/CFH)

UNITED STATES OF AMERICA,
Defendant.

APPEARANCES:
Antonia W. Shields
P.O. Box 195
Saratoga Springs, New York 12866
Plaintiff pro se
REPORT-RECOMMENDATION AND ORDER

*1

I. In Forma Pauperis
Plaintiff pro se Antonia W. Shields commenced this action on February 13, 2020,
by filing a complaint. See Dkt. No. 1 (“Compl.”).1 Plaintiff also filed a motion to proceed
in forma pauperis (“IFP”). See Dkt. No. 2. The undersigned has reviewed plaintiff's IFP
application and has determined that plaintiff financially qualifies to proceed IFP.2

33

II. Initial Review

The Court has dismissed plaintiffs two previous lawsuits. See Shields v. Klein. No. 1:18-CV-835
(MAD/CFH) (dismissing with prejudice pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii) for failure to state a
claim); Shields v. New York State. No. 1:14-CV-00624 (DNH/TWD) (dismissing plaintiffs complaint for
failure to comply with Court Order).
1

2 Plaintiff is advised that although she has been granted IFP status, she is still required to pay any fees
and costs she may incur in this action, including but not limited to copying fees, transcript fees, and
witness fees.

1
AWBti&iX’ W*

Case l:20-cv-00152-GTS-CFH Document 5 Filed 04/30/20 Page 2 of 9

A. Legal Standard
Section 1915 of Title 28 of the United States Code directs that, when a plaintiff
seeks to proceed IFP, “the court shall dismiss the case at any time if the court
determines that... the action or appeal (i) is frivolous or malicious; (ii) fails to state a
claim on which relief may be granted; or (iii) seeks monetary relief against a defendant
o

who is immune from such relief.” 28 U.S.C. § 1915(e)(2)(B). Thus, it is a court’s
responsibility to determine that a plaintiff may properly maintain his complaint before
permitting him to proceed with his action.
Where, as here, the plaintiff proceeds £ro se, “the court must construe his
submissions liberally and interpret them to raise the strongest arguments that they
suggest.” Kirkland v. Cablevision Sys., 760 F.3d 223, 224 (2d Cir. 2014) (per curiam)

*n (internal quotation marks omitted). However, this does not mean the Court is required
to accept unsupported allegations that are devoid of sufficient facts or claims. Although
detailed allegations are not required at the pleading stage, the complaint must still
include enough facts to provide the defendants with notice of the claims against them
and the grounds upon which these claims are based. See Ashcroft v. Iqbal. 556 U.S.
662, 678 (2009); Bell Atlantic v. Twomblv. 550 U.S. 544, 555-56 (2007). Ultimately, the
cc plaintiff must plead “enough facts to state a claim to relief that is plausible on its face.”
Twomblv, 550 U.S. at 570.
Pleading guidelines are set forth in the Federal Rules of Civil Procedure (“Fed. R.
Civ. P.”). Specifically, Rule 8 provides that a pleading which sets forth a claim for relief
shall contain, among other things, “a short and plain statement of the claim showing that
the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). “The purpose ... is to give fair

2

Case l:20-cv-00152-GTS-CFH Document 5 Filed 04/30/20 Page 3 of 9

notice of the claim being asserted so as to permit the adverse party the opportunity to
file a responsive answer, prepare an adequate defense and determine whether the
doctrine of res judicata is applicable.” Flores v. Graphtex, 189F.R.D. 54, 54 (N.D.N.Y.
1999) (internal quotation marks and citations omitted). Rule 8 also requires the
pleading to include:
o

(1) a short and plain statement of the grounds for the court's
jurisdiction . . .
(2) a short and plain statement of the claim showing that the
pleader is entitled to relief; and
(3) a demand for the relief sought
Fed. R. Civ. P. 8(a). Although “[n]o technical form is required,” the Federal Rules make
clear that each allegation contained in the pleading “must be simple, concise, and
direct.” Id. at 8(d).
Further, Rule 10 of the Federal Rules provides in pertinent part that:
[a] party must state its claims or defenses in numbered
paragraphs, each limited as far as practicable to a single set
of circumstances. A later pleading may refer by number to a
paragraph in an earlier pleading. If doing so would promote
clarity, each claim founded on a separate transaction or
occurrence - and each defense other than a denial - must
be stated in a separate count or defense.

a Fed. R. Civ. P. 10(b). This serves the purpose of “providing] an easy mode of
identification for referring to a particular paragraph in a prior pleading[.]” Flores, 189
F.R.D. at 54 (internal quotation marks and citations omitted). A complaint that fails to
comply with the pleading requirements “presents far too a heavy burden in terms of
defendants’ duty to shape a comprehensive defense and provides no meaningful basis
for the Court to assess the sufficiency of their claims.” Gonzales v. Wing, 167 F.R.D.

3

Case l:20-cv-00152-GTS-CFH Document 5 Filed 04/30/20 Page 4 of 9

352, 355 (N.D.N.Y. 1996). As the Second Circuit has held, “[wjhen a complaint does
not comply with the requirement that it be short and plain, the court has the power, on
its own initiative ... to dismiss the complaint.” Salahuddin v. Cuomo. 861 F.2d 40, 42
(2d Cir. 1988) (citations omitted). However, “[dismissal... is usually reserved for
those cases in which the complaint is so confused, ambiguous, vague, or otherwise
o unintelligible that its true substance, if any, is well disguised.” id. (citations omitted). In
such cases of dismissal, particularly when reviewing a pro se complaint, the court
generally affords the plaintiff leave to amend the complaint. See Simmons v. Abruzzo,
49 F.3d 83, 86-87 (2d Cir. 1995). A court should not dismiss a complaint if the plaintiff
has stated “enough facts to state a claim to relief that is plausible on its face.” Twombly,
550 U.S. at 570. “A claim has facial plausibility when the plaintiff pleads factual content
hi

that allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged.” Iqbal. 556 U.S. at 678 (citation omitted).

B. Plaintiffs Complaint
The complaint states that Northern District of New York Local Rule
(“N.D.N.Y.L.R.”) 5.4 violates the “Equal Rights clause of United States law 28 U.S.C. §

x

453” “by arbitrarily requiring standard of review [sic] 28 U.S.C. § 1915” of plaintiff, a
“free citizen” “determined poor, unlike requiring standard of review separate from 28
U.S.C. § 1915 for if [plaintiff] were rich.” Compl. at 5. Generously construing the
complaint, plaintiff argues that, by reviewing her IFP application in her prior lawsuit
pursuant to N.D.N.Y.L.R. 5.4 and 28 U.S.C. § 1915, the Court inappropriately labeled
her a “prisoner." Id. Plaintiff requests as relief (1) “a good change in [N.D.N.Y.L.R.] 5.4

4

Case l:20-cv-00152-GTS-CFH Document 5 Filed 04/30/20 Page 5 of 9

corrected by 28 U.S.C. § 2072 to not violate the U.S. Constitution’s preamble,” and (2)
“$10,000 for harm done." ]d. at 6.

C. Analysis3
1. Sovereign Immunity
o

“Under the Constitution, the United States Government possesses absolute
immunity from suit in its courts without its consent ‘and the terms of its consent to be
sued in any court define that court’s jurisdiction to entertain the suit.’” Smith v. Brown.
296 F. Supp. 3d 648, 660 (S.D.N.Y. 2017) (quoting United States v. Sherwood. 312
U.S. 584, 586 (1941)) (further citations omitted). “The doctrine of sovereign immunity is
jurisdictional in nature,” Makarova v. United States, 201 F.3d 110, 113 (2d Cir. 2000),

*1

and “[ajbsent a waiver, sovereign immunity shields the Federal Government and its
agencies from suit.” F.D.I.C. v. Meyer, 510 U.S. 471,475 (1994); see United States v.
Mitchell, 463 U.S. 206, 212 (1983) (“It is axiomatic that the United States may not be
sued without its consent and that the existence of consent is a prerequisite for
jurisdiction.”). Here, plaintiff names the United States as the sole defendant in this
action and does not argue or present any facts from which the undersigned could

x

plausibly infer that her claims fall within an applicable waiver. See Compl. at 1. Thus,
plaintiff’s claims are barred by the doctrine of sovereign immunity and the Court lacks
subject matter jurisdiction over this matter. See Makarova, 201 F.3d at 113; Meyer, 510
U.S. at 475.

3 All unpublished opinions cited in this Report-Recommendation and Order, unless otherwise noted, have
been provided to plaintiff.

5

Case l:20-cv-00152-GTS-CFH Document 5 Filed 04/30/20 Page 6 of 9

2. Review of Merits of Claims
Plaintiffs argument that N.D.N.Y.L.R. 5.4 is violative of her constitutional rights
because, by requiring the Court to review her IFP motion relating to her prior lawsuit
pursuant to the standard set forth in 28 U.S.C. § 1915, she was inappropriately labeled
a prisoner, is meritless. See Compl. at 5. N.D.N.Y.L.R. 5.2(a) expressly states that
o Title 28 U.S.C. § 1915 and N.D.N.Y.L.R. 5.4 “govern in forma pauperis proceedings.”
Although N.D.N.Y.L.R. 5.4—which is effectively a restatement of 28 U.S.C. § 1915—
discusses IFP motions in reference to “prisoner litigants” in the context of the Prison
Litigation Reform Act (“PLRA”), it is well-established that Section 1915 applies to
inmates and non-inmates equally. N.D.N.Y. L.R. 5.4(a). “While the text of 28 U.S.C. §
1915(a)(1) appears to only provide for the [IFP] status of prisoner litigators, it is wellestablished that [Section] 1915(a)(1) affords all natural persons with the opportunity to
apply for permission to proceed without prepayment of fees.” Eqnatski v. Mortilla, No.
06-CV-1405 (JS/ARL), 2006 WL 8452994, at *2 n.2 (E.D.N.Y. July 21,2006); see
Leonard v. Lacy, 88 F.3d 181, 183 (2d Cir. 1996) (listing the PLRA’s revisions to 28
U.S.C. § 1915 and recognizing that the use of “prisoner” in Section 1915(a)(1) was error
by inserting “[sic]” in the quotation from the PLRA); Powell v. Hoover. 956 F. Supp. 564,

x

566 (M.D. Pa. 1997) (holding that “a fair reading of [Section 1915 in its entirety] is that it
is not limited to prisoner suits”).
Moreover, insofar as the complaint may be read as asserting a similar, but
distinct claim, that N.D.N.Y.L.R. 5.4 and Section 1915 force the Judges of the Northern
District of New York to violate their oath contained in 28 U.S.C. § 453 to “do equal right
to the poor and to the rich” by requiring them to apply different standards to the rich and

6

Case l:20-cv-00152-GTS-CFH

Document 5 Filed 04/30/20 Page 7 of 9

poor, plaintiffs claim lacks merit. See Compl. at 2. It is well-settled that the purpose of
Section 1915 is to ensure that indigent persons are not prevented from accessing the
courts due to their inability to pay filing fees. See, e.q., Hobbs v. County of
Westchester. No. 00-CV-8170(JSM), 2002 WL 868269, at *1 (S.D.N.Y. May 3, 2002)
(“The purpose of the statute permitting litigants to proceed [IFP] is to insure that indigent
o

persons have equal access to the judicial system.”). The Court reviews IFP motions “to
weed out the litigants who falsely understate their net worth in order to obtain [IFP]
status when they are not entitled to that status based on their true net worth" and “[t]o
discourage abuse of [the] privilege” of proceeding IFP—not to discriminate against
those seeking to properly avail themselves of IFP status. Cuoco v. U.S. Bureau of
Prisons, 328 F. Supp. 2d 463, 467 (S.D.N.Y. 2004) (internal quotation marks and
citations omitted).
To the extent plaintiff argues that N.D.N.Y.L.R. 5.4 and Section 1915 require the
Court to discriminate against indigent litigants by subjecting their complaints to a review
of the sufficiency of the complaint, which could result in dismissal of their action, but not
complaints of those who pay the filing fee, her argument lacks merit. See Compl. at 5.
Although the district court may dismiss meritless claims of a litigant seeking to proceed

sa IFP, it is equally true that the district court may sua sponte dismiss meritless claims of a
litigant who has paid the filing fee. See Mauro v, Hireriqht, No. 5:19-CV-1343
(GLS/ATB), 2019 WL 5788561, at *2 (N.D.N.Y. Nov. 6, 2019) (“Although [the] plaintiff
has paid the filing fee, the district court has ‘the inherent authority to sua sponte dismiss
a fee-paid action as frivolous.’”) (quoting Mendez Da Casta v. Marcucilli, 792 F. App’x

7

, >

Case l:20-cv-00152-GTS-CFH Document 5 Filed 04/30/20 Page 8 of 9

865, 867 (2d Cir. 2019)). Consequently, even assuming that the Court could exercise
jurisdiction over this matter, which it cannot, plaintiffs complaint fails to state a claim.

3. Leave to Amend
When addressing a gro se complaint, a district court generally “should not [be]
a dismiss[ed] without granting leave to amend at least once when a liberal reading of the
complaint gives any indication that a valid claim might be stated.” Shomo v. City of New
York, 579 F.3d 176, 183 (2d Cir. 2009) (internal quotation marks and citation omitted).
However, the court is not required to grant leave to amend when doing so would be
futile. See Cuoco v. Mortisuou. 222 F.3d 99, 112 (2d Cir. 2000). Here, because “[t]he
problem[s] with [plaintiffs] causes of action [are] substantive[,] better pleading will not
cure [them,]” and any attempt to amend would, therefore, be futile. ]d. Accordingly, it is
recommended that plaintiffs complaint be dismissed in its entirety with prejudice and
without opportunity to amend.

III. Conclusion
WHEREFORE, for the reasons set forth herein, it is hereby
Ed

ORDERED, that plaintiffs motion to proceed in forma pauperis (Dkt. No. 2) is
GRANTED for purposes of filing only; and it is
RECOMMENDED, that plaintiffs complaint (Dkt. No. 1) be DISMISSED WITH
PREJUDICE AND WITHOUT OPPORTUNITY TO AMEND; and it is further
ORDERED, that the Clerk of the Court serve this Report-Recommendation &
Order on plaintiff in accordance with Local Rules.

8

Case l:20-cv-00152-GTS-CFH

Document 5 Filed 04/30/20 Page 9 of 9

IT IS SO ORDERED.
Pursuant to 28 U.S.C. § 636(b)(1), plaintiff has FOURTEEN (14) days within
which to file written objections to the foregoing report. Such objections shall be filed
with the Clerk of the Court. FAILURE TO OBJECT TO THIS REPORT WITHIN
FOURTEEN (14) DAYS WILL PRECLUDE APPELLATE REVIEW. Roldan v. Racette.
o

984 F.2d 85, 89 (2d Cir. 1993) (citing Small v. Sec’v of Health and Human Servs., 892
F.2d 15 (2d Cir. 1989)); see also 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72 & 6(a).4
Dated: April 30, 2020
•Albany, New York

Christian F. Hummel
U.S. Magistrate Judge
hr]

a

4 If you are proceeding jdto se and are served with this Order by mail, three additional days will be added
to the fourteen-day period, meaning that you have seventeen days from the date the Order was mailed to
you to serve and file objections. Fed. R. Civ. P. 6(d). If the last day of that prescribed period falls on a
Saturday, Sunday, or legal holiday, then the deadline is extended until the end of the next day that is not
a Saturday, Sunday, or legal holiday. ]d. § 6(a)(1)(C).

9

Case 20-3427, Document 20, 10/21/2020, 2957199, Pagel of 2
United States Department of Justice

KSQSr

II

Jjq

United States Attorney
-Northern-Bist7r4et-of-Ne¥.‘-¥or-k445 Broadway, Room 218
James T. Foley U.S. Courthouse
Albany, New• York 12207-2924

Tel: (518) 431-0247
Fax: (518) 431-0386

October 21, 2020
Hon. Catherine O’Hagan Wolfe, Clerk
United States Court of Appeals
for the Second Circuit
Thurgood Marshall United States Courthouse
40 Foley Square
New York, NY 10007
Re:

Shields v. United States
Docket No. 20-3427

Dear Ms. Wolfe:
The undersigned Assistant United States Attorney has filed a limited notice of appearance
on behalf of the United States (the “Federal Defendant”) in the above-captioned civil
appeal, for the limited purpose of being kept electronically apprised of events noted on
the docket. See Valentin v. Dinkins, 121 F.3d 72, 75 n.2 (2d Cir. 1997) (Corporation
Counsel’s participation in appeal on behalf of a defendant-appellee who had not been
served with process did not “constitute a waiver of the service issue, or a general
appearance” by that defendant-appellee).
The Federal Defendant was not served with the complaint, and did not appear in the
district court, before the district court sua sponte dismissed the action filed by pro se
plaintiff-appellant. Because it was never made parties to the district court action, the
Federal Defendant is not properly parties to this action. See Boddie v. Alexander, 365 F.
App’x 438, 439 n.l (2d Cir. 2009); Petway v. N.Y. City Transit Auth, 405 F. App’x 66,
66 n.2 (2d Cir. 2011); Chavis v. Chappius, 618 F.3d 162,166-67 (2d Cir. 2010)
(“Because Defendant was never served, it is not parties to this appeal”).
Given that there was no federal “party” below, please be advised that we will not be
participating in the captioned civil appeal, absent some further direction from the Court.

APPENDIX X.

if

Case 20-3427, Document 20, 10/21/2020, 2957199, Page2 of 2
Hon. Catherine O’Hagan Wolfe, Clerk
Shields v. United States
October 21,2020
Page-2--------------- :------ :-----------------

.

--- :-----:-----:-----------

Thank you for your attention to this matter.
Very truly yours,
ANTOINETTE T. BACON
Acting United States Attorney
By:
cc:

Antonia W. Shields, pro se
P.O.Box 195
Saratoga Springs, NY 12866

s/ Karen Folster Lesperance
Karen Folster Lesperance
Assistant United States Attorney

J

I

Case l:20-cv-00152-GTS-CFH

Document 15

Filed 10/07/20

Page 1 of 1

UNITED STATESfglSTRICT COURT
NORTHERN DIs||a^X|6F NEW YORK
ELECTRONIC NOTICE OF CIVIL APPEAL & CLERK’S CERTIFICATION

Dear Clerk of the Court,
Please take notice that on September. 30,2020 the court received a notice of appeal. This
notice serves to inform you of the pending appeal and provides you with the information needed
to process the appeal.
I, JOHN M. DOMURAD, CLERK, U.S. District Court for the Northern District of New York,
DO, HEREBY CERTIFY that the foregoing docket entries, with the exception of the documents
listed below, are maintained electronically on the court's CM/ECF system and constitute the Record
on Appeal in the below listed action.
The following documents are not available electronically. Please notify the Syracuse Clerk’s
Office if you need any of the following documents:
Docket No.(s):___
IN TESTIMONY WHEREOF, I have hereunto set my hand
and caused the Seal of said Court to be hereto affixed at the
City of Utica, New York, this 7th day of October, 2020.

By:

s/ Helen M. Reese
Deputy Clerk

Case Information
Case Name & Case No.

Antonia W. Shields v. United States
1:20-CV-0152 (GTS/CFH)

Docket No. of Appeal:
Documents Appealed:

13
10 & 11
Due__
Application Attached__

Paid
Fee Status:
IFP revoked
Counsel:
Time Status:

Retained
Timely X

Motion for Extension of Time:
Certificate of Appealability:

Waived (IFP/CJA)_X_
IFP pending before USDJ__

Pro Se X
Untimely__
Granted

Granted__

Denied

Denied
N/A

Please note that the Fee Status is Waived-IFP, the Dkt. No. 2 - Motion for Leave to Proceed
In Forma Pauperis was Granted at Dkt. No. 5 - Report-Recommendation and Order dated April
30, 2020.

♦

Civil Case Number l:20-cv-00152-GTS-CFH
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
CIVIL FILING DIVISION - ALBANY

Antonia W. Shields

PLAINTIFF

v.
United States

DEFENDANT

ON MOTION TO FILE OBJECTIONS TO REPORTRECOMMENDATION AND ORDER filed April 30, 2020
THIS IS: OBJECTIONS TO REPORT-RECOMMENDATION and
ORDER

Signature

t>, 2JD2JD
May 5, 2020 (Please note: this is an
unusual time when the Court building
is closed to the public.)

Antonia W. Shields, pro se, not an attorney
PO Box 195
Saratoga Springs, NY 12866
315.368.4415

cover

Original QUESTION PRESENTED
Respectfully, does the federal government give
unequal right to a free United States citizen and give
unequal right to the United States Constitution when
judiciary, specifically under 28 U.S.C.§453, requires
standard of review, 28 U.S.C. §1915, because of Local Rule
5.4 U.S. district court for the Northern District of New
York? For civil action filed, a free U.S. citizen, determined
poor, is named in standard of review, 28 U.S.C. §1915,
“prisoner.” Yet, for civil action filed, a free U.S. citizen,
rich, does not have same standard of review
and is not named “prisoner.” For free U.S. citizen
Shields filing civil action, does governmental use of this
different standard of review, 28 U.S.C. §1915, violate
security of “Blessings of Liberty” under the United States
Constitution preamble, undo equal right to the poor and
to the rich, and undo 28 U.S.C.§453 ?
page 1 of 7

This party respectfully requests modification of that which is
contrary to federal law in the Report-Recommendation Ordered.
This plaintiff gave no consent to a Magistrate Judgship in this case.
Nor, to this plaintiff’s knowledge, a District Judge has not received
issue of a Report-Recommendation from Magistrate Judgship.. When
such happens, please mail an updated paper copy, as is customary, of
the Docket Sheet, to this plaintiff as soon as practicable.
The Magistrate Judgship Report-Recommendation was served by
mail on paper. This is an unusual time, as the entry date of the ReportRecommendation is unknown to Shields because no one has sent a
Docket Sheet with this information to Shields. Please send an updated
Docket Sheet only after these unattached (separate) documents in this
mailing are entered, noting filing date and entry date.
Thank you.
Further, I, Shields, am pro se, and I am not an attorney.
On April 30, 2020, Federal district court (civil) ReportRecommendation Ordered for the official record that 28 U.S.C. § 1915
is true for Shields. See their legal standard. And, truth has merit.

page 2 of 7

But, 28 U.S.C. § 1915 has never been true for Shields because
Shields has always been a free U.S. Citizen, and
Shields is neither a prisoner, nor
has Shields ever been a prisoner.
Yet, the requirement that free U.S. Citizen Shields
be placed under 28 U.S.C. § 1915 conflicts with Federal Law
28 U.S.C. § 453. Such conflict is because there is mandated truth to
federal judgship. No other.
So, precedent is wrong when judgship conflicts with federal law.
Correction may be.
Or, a judge may certainly apologize for falsehood claimed. And,
the accuser, the judge, may Order the wrong caused by such mishap
entered changed. If there is no proper filing, then there is no action.
Now, previously, and into the future, please do not decide and
provide judgment to any free U.S. Citizens under 28 U.S.C. § 1915
because to do so is false and not within Federal Judgship Oath.
U.S. district court judgship is now through the ReportRecommendation Ordered solely based upon 28 U.S.C. § 1915 (that

page 3 of 7

this plaintiff finds to be clearly contrary to federal law: 28 U.S.C. § 453
- truth is judgship) such Report-Recommendation Ordered is now
causing harm to free U.S. Citizen Shields, plaintiff.

All federal law judgship is 28 U.S.C. § 453 truth to the U.S.
Constitution and for whom it stands.
Basing Report-Recommendation Ordered upon true 28
U.S.C. § 1915 (for any free U.S. Citizen) is all federal law judgeship.
Basing Report-Recommendation Ordered upon true 28
U.S.C. § 1915 (for any free U.S. Citizen) is 28 U.S.C. § 453 truth to the
U.S. Constitution and for whom it stands.

And,

Not basing Report-Recommendation Ordered upon the
truth (28 U.S.C. § 1915 is wrong and contrary to any free U.S. Citizen)
is not federal law 28 U.S.C. § 453 truth to the U.S. Constitution and for
whom it stands.
page 4 of 7

No true federal law judgship is not basing Report-Recommendation
Ordered upon the truth (28 U.S.C. § 1915 is wrong and contrary to any
free U.S. Citizen).
No true federal law judgship is not federal law 28 U.S.C. § 453 truth
to the U.S. Constitution and for whom it stands.
By Amendment X. to the U.S. Constitution, truth stands firmly on
the grounds that States cannot contradict a federal law; it is not
customary to do, so the Constitutional federal law governs.
The above covers the district court’s assignment of stated cause:
42 U.S.C. §1983 to this Case # l:20-cv-00152-GTS-CFH filed February
12, 2020 on their April 9, 2020 printed Civil Docket first mailed on
paper to Shields. And, this case addresses conflict between federal
laws for free U.S. Citizen Shields, of interest to the Court, and not for
filing only - but Civil Action Federal Question subject matter apt.
Moreover, U.S. Constitution Article 3. Section 2. says,
“The judicial Power shall extend to all Cases,
in Law and Equity, arising under this Constitution, the
Laws of the United States...”

page 5 of 7

28 U.S.C.§453 is in conflict with 28 U.S.C. § 1915 for Shields, here, and
this is a Case in Law and Equity, arising under the U.S. Constitution,
with conflict between these Laws of the United States for Shields.

And, U.S. Constitution Article 3. Section 2. guarantees:
“In all other Cases before mentioned, the supreme
Court shall have appellate jurisdiction, both as to Law and
Fact, with such Exceptions, and under such Regulations as
the Congress shall make.”

May the Congress save the truth inside 28 U.S.C. §453. It appears
such declaratory decree was violated, and it is possible that the U.S.
district court may not be immune from such conflict between federal
laws because of the harm they have caused Shields.

Thank you.
Re sp e ctfully/submitted.
Antonia W. Shields/p^o se

..'
/

Ma.'OjJ 57

PO Box 195
Saratoga Springs, New York 12866
315.368.4415

£ o'f 7

2-022

Declaration: To the best of my knowledge and ability, pro se, not
an attorney, free U.S. Citizen Shields affirms the above to be the truth.

'j£r*,Bn
May 5, 2020

Page 7 of 7

CIVLECF LIVE - U.S. District Court - NYND

https://nynd-ecf.sso.dcn/cgi-bin/DktRpt.pl7100531284267145-L_l O'

i

. i

CLOSED.PRO SE

U.S. District Court
Northern District of New York - Main Office (Syracuse) [NextGen CM/ECF Release 1.6 (Revision 1.6.2)] (Albany)
CIVIL DOCKET FOR CASE #: l:20-cv-00152-GTS-CFH
------ -—------------------------InterhaLTJse Only
~~~
Shields v. United States
Assigned to: Chief Judge Glenn T. Suddaby
Referred to: Magistrate Judge Christian R Hummel
Demand: SI0.000
Case in other court: 2nd Circuit. 20-03427
Cause: 42:1983 Civil Rights Act

Date Filed: 02/12/2020
Date Terminated: 07/26/2021
Jury Demand: None
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question

Plaintiff
Antonia \V. Shields

represented by Antonia \V. Shields
P.O. Box 195
Saratoga Springs, NY 12866
Email:
PRO SE

V.
Defendant
United States
[Email AJ Attorneys']
; Email All Attorneys and Additional Recipients)

Date Filed
02/12/2020

#

Docket Text

i COMPLAINT against United States filed by Antonia VV. Shields. (Attachments: # I Civil Cover Sheet)(hmr)
(Entered: 02/13/2020)

02/12/2020

2 MOTION for Leave to Proceed in forma pauperis filed by Antonia W. Shields. Motions referred to Christian F.
Hummel, (hmr) (Entered: 02/13/2020)

02/13/2020

3

PRO SE HANDBOOK (Packet) and NOTICE mailed to pro se plaintiff via regular mail on 2/13/2020. (hmr)
(Entered: 02/13/2020)

02'20/2020

4

PRO SE HANDBOOK and NOTICE returned executed by Antonia VV. Shields. (Attachments: U I Cover letter. # 2
Mailing envelope) (see) (Entered: 02/21/2020)

04/30/2020

5

REPORT-RECOMMENDATION AND ORDER: re 1 Complaint filed by Antonia W. Shields: that plaintiffs
motion to proceed in forma pauperis (Dkt. No. 2 ) is Granted for purposes of filing only; Recommended, that
plaintiffs complaint (Dkt. No. I) be Dismissed with prejudice and without opportunity to amend; and that the
Clerk of the Court serve this Report-Recommendation & Order on plaintiff in accordance with Local Rules.
(Objections to R&R due by 5/14/2020, Case Review Deadline 5/18/2020), Motions terminated: 2 MOTION for
j
Leave to Proceed in forma pauperis filed by Antonia W. Shields.Signed by Magistrate Judge Christian F. Hummel j
on 04/30/2020. (Attachments: # ! Unpublished Cases) [A copy of this Report-Recommendation and Order,
together with the unpublished cases were served upon pro se plaintiff via regular mail at P.O. Box 195. Saratoga
Springs. NY 12866 on 4/30/2020.](hmr) (Entered: 04/30/2020)

05/06/2020

6

OBJECTIONS to 5 Report and Recommendations by Antonia VV. Shields, (hmr) (Entered: 05/06/2020)

06/10/2020

1 Letter Motion from Antonia VV. Shields requesting a three judge decision and a copy of the docket sheet. [A copy
of the docket sheet was mailed to pro se plaintiff via regular mail on 6/11/2020.] (Attachments: # J_
Envelope)(hmr) (Entered: 06/11/2020)

06-T5/2020

1 of 2

8

TEXT ORDER denying with prejudice 7 Plaintiffs request for a three-judge court for each of the following two
reasons. First, Plaintiff has failed to "submit the first pleading in which [Plaintiff] asserts the cause of action
requiring a three-judge court," as required by Local Rule 9.1 of the District's Local Rules of Practice. Second, in
any event. Plaintiff has failed to show either that the convening of a three-judge panel is "required by Act of
Congress" or that Plaintiffs action "challenges] the constitutionality of the apportionment of congressional
districts or the apportionment of any statewide legislative body ." as required by 28 U.S.C. § 2284(a). SO

At>PENDi* L.

7/29/2021, 1:39 Pi

LM/tU- LIVE - U.S. District Court - NYND
• t

https://nynd-ecf.sso.dcn/cgi-bin/DktRpt.pl7100531284267145-L_l_0

■t

ORDERED by Chief Judge Glenn T. Suddaby on 6/15/2020. (Copy served upon Plaintiff via reeular mail) (sal)
(Entered: 06/15/2020)
06/19/2020

2 Letter Motion from Antonia W. Shields requesting status of the case. (Attachments: # 1 EnvelopeVhmr) (Entered06/22/2020)

06/22/2020

Clerk mailed a.ciops_o.Qhe_dflcis.eijJie.e.t.in.i-.esponse-to-the-94&tto^motion-requesdne-sttHtis-ef-casc-on-6/-2-2/2'020—■
by regular mailr(see) (Entered: 06/22/2020)

09/11/2020

10

DECISION AND ORDER that Magistrate Judge Hummel's Report-Recommendation (Dkt. No. 5 ) is ACCEPTED
and ADOPTED in its entirety. Plaintiffs Complaint (Dkt. No. I) is DISMISSED with prejudice and without prior
leave to amend pursuant to 28 U.S.C. § 1915(e)(2)(B). Signed by Chief Judge Glenn T. Suddaby on 9/11/2020.
(Copy served upon Plaintiff via regular and certified mail), (sal) (Entered: 09/11/2020)

09/11/2020

11

JUDGMENT that, pursuant to the Decision and Order issued on September 1 1, 2020 (Dkt. No. 10 ) by the
Honorable Glenn T. Suddaby, that Magistrate Judge Hummel's Report-Recommendation (Dkt. No. 5 ) is
ACCEPTED and ADOPTED in its entirety. Plaintiffs Complaint (Dkt. No. 1) is DISMISSED with prejudice and
without prior leave to amend pursuant to 28 U.S.C. § 1915(e)(2)(B). The Clerk is directed to CLOSE this action.
All of the above pursuant to the Decision and Order issued by the Honorable Glenn T. Suddaby, dated September
11,2020. Dkt. No. JO .(Copy served upon Plaintiff via regular and certified mail), (sal) (Entered: 09/11/2020)

09/24/2020

12

Letter from Antonia W. Shields requesting a copy of the Docket Sheet. [Albany Clerk's office mailed a copv of the
docket sheet to pro se plaintiff via regular mail on 9/24/2020.] (hmr) Modified on 9/25/2020 to change from a
letter motion to a letter (sal). (Entered: 09/25/2020)

09/30/2020

13

NOTICE OF APPEAL as to JO Decision and Order on Report and Recommendations, JH Judgment, by Antonia
W. Shields. [Filed stamped copy was mailed to pro se plaintiff, via regular mail on 10/2/2020,^}' the Albanv
Clerk's office.] (hmr) (Entered: 10/02/2020)

10/02/2020

14

ELECTRONIC NOTICE AND CERTIFICATION sent to US Court of Appeals re J3 Notice of Appeal. [A copy of
the Electronic Notice and Certification, along with the Civil Appeals Packet were mailed to pro se plaintiff via
regular mail on 10/2/2020.] (Attachments: # J. Civil Appeals Packet)(hmr) (Entered: 10/02/2020)

10/07/2020

15

Supplemental Electronic Certification transmitted to US Court of Appeals re J3 Notice of Appeal. [Copy of this
Supplemental Electronic Certification was mailed to pro se plaintiff via reeular mail on 10/7/2020.] (hmr)
(Entered: 10/07/2020)

06/03/2021

2 of 2

USCA Case Number 20-3427 for J3 Notice of Appeal filed by Antonia W. Shields, (nas,) (Entered: 06/03/2021)

06/04/2021

16

SUMMARY ORDER of USCA [Certified Copy Issued on 6/4/2021] as to J^ Notice of Appeal filed by Antonia W.
Shields, (hmr) (Entered: 06/04/2021)

07/26/2021

17

MANDATE of USCA [Issued on 7/26/2021] as to J_3Notice of Appeal filed by Antonia W. Shields: It is hereby
Ordered, Adjudged, and Decreed that the judgment of the district court is Affirmed, but the case is Remanded for
the court to amend its judgment and enter dismissal without prejudice, and Deny Shield's motion for a stav. (hmr)
(Entered: 07/26/2021)

07/26/2021

■18

AMENDED JUDGMENT that, pursuant to the Mandate issued on July 26, 2021 (Dkt. No. J7 ) by the United
States Court of Appeals for the Second Circuit, Magistrate Judge Hummel's Report-Recommendation (Dkt. No. 5 )
is ACCEPTED and ADOPTED in its entirety; and Plaintiffs Complaint (Dkt. No. J) is DISMISSED without
prejudice. The Clerk is directed to CLOSE this action. All of the above pursuant to the Mandate issued on July 26,
2021 by the United States Court of Appeals for the Second Circuit. Dkt. No. J7 . (Copy served via regular and
certified mail) (sal) (Entered: 07/26/2021)

7/29/2021, 1:39 P(

Civl Case Number:
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
CIVIL FILING DIVISION - ALBANY

Antonia W. Shields

PLAINTIFF

v.

United States

DEFENDANT

ON MOTION TO FILE COMPLAINT FOR CIVIL ACTION
THIS IS: THE COMPLAINT FOR CIVIL ACTION

(a

oz.

Antonia W. Shields, pro se

February 10, 2020

POBox 195

uz

Saratoga Springs, NY 12866
315.368.4415

zaz-o

3

1

Rachel A. Petryna
Notary Public State of New York
No. 01PE6107354
Qualified In Saratoga County
Commission Expires March 29, 20'CO

cover
APPEN&i* mo

QUESTION PRESENTED
Respectfully, does the federal government give
unequal right to a free United States citizen and give
unequal right to the United States Constitution when
judiciary, specifically under 28 U.S.C.§453, requires
standard of review, 28 U.S.C. §1915, because of Local Rule
5.4 U.S. district court for the Northern District of New
York? For civil action filed, a free U.S. citizen, determined
poor, is named in standard of review, 28 U.S.C. §1915,
“prisoner.” Yet, for civil action filed, a free U.S. citizen,
rich, does not have same standard of review
and is not named “prisoner.” For free U.S. citizen
Shields filing civil action, does governmental use of this
different standard of review, 28 U.S.C. §1915, violate
security of “Blessings of Liberty” under the United States
Constitution preamble, undo equal right to the poor and
to the rich, and undo 28 U.S.C.§453 ?

page 1 of 5

JURISDICTION
Federal Rule of Civil Procedure 1 governs this civil action in the
United States district court of the Northern District of New York Civil
Filing Division - Albany. As such, there is security of the just, speedy,
and inexpensive determination of this action. This one form of action,
this civil action, is commenced by filing this complaint with the court.
1. Jurisdictional subject matter is 28 U.S.C. §1331:
“Federal question The district courts shall have
original jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United States.”
This civil action is a federal question civil action.
2. Jurisdictional venue general geography is 28 U.S.C.§1391(a)(2):
“a judicial district in which a substantial part of the events
or omissions giving rise to the claim occurred...”
The judicial district is the Northern District of New York
Civil Filing Division - Albany.
3. Jurisdictional venue residential geography is 28U.S.C.§1391(c):
“...a natural person • • • shall be deemed to reside in the
district in which that person is domiciled.”

page 2 of 5

Shields is a U.S. citizen who is domiciled in Saratoga
County within the Northern District of New York Civil
Filing Division - Albany.
4. Jurisdictional timing (28 U.S.C.§2401) is just after one year
from February 7, 2019 final Decision and Order and final
Civil Judgment. There are no pending cases.The prior case
was Shields v. Klein et al. finally decided February 7, 2019.
Today is February 10, 2020. Different are the parties and
the U.S. district court complaint’s federal question.
5. Constitutional Rights Complaint pursuant to 28 U.S.C.
§133lvc, violation of the Constitution of the United States
as hereinafter more fully appears.
FACTS
Local rule 5.4 of the Northern District of New York needs change
to become not in violation of the Constitution of the United
States. Harm was allegedly caused both to the Constitution of the
United States and to Shields, because the government arbitrarily made
happen on February 7, 2019, at U.S. district court Northern District of

page 3 of 5

New York Civil Filing Division - Albany, final DecisionandPrder_and
final Civil Judgment giving Shields no equal right in violation of the
Equal Right clause of United States law 28 U.S.C. §453, that binds
Oath to the U.S. Constitution preamble when pursuing justice
[following Local Ride 5.4 (Northern District of New York)]. Such
pursuit of justice harmed Shields and harmed the U.S. Constitution
by arbitrarily requiring standard of review 28 U.S.C.§1915 for free
citizen Shields determined poor, unlike requiring standard of review
separate from 28 U.S.C.§1915 for if Shields were rich. And,
the government’s pursuit of justice removed Shields’s free U.S.
citizen’s equal right by law 28 U.S.C. §453 - denying to secure full U.S.
Constitutional “Blessings of Liberty” protection - by imposing
governmental arbitrary restraint in violation of the U.S. Constitution
preamble; there was no equal right to the poor and to the rich for
standard of review 28 U.S.C. §1915 use for Shields, who is no
“prisoner,” who has never been “prisoner.”
Shields has always been a free U.S. citizen.

page 4 of 5

I

r

RELIEF
1. Shields requests a good change in L.R. 5.4, corrected by 28 U.S.C.
2072 to not violate the U.S. Constitution’s preamble, so to “secure
the Blessings of Liberty.”

2. Shields also respectfully requests $10,000 for harm done.
Truth is on the scaffold. Now, set in the beautiful stairwell railing
of the building housing the U.S. district court, Northern District of
New York, Civil Division - Albany at 445 Broadway, Albany, NY, the
judicial scales are in balance. Request is trial by court.
But, the claim for which relief may be granted may need to be
separated from governmental immunity, if conflict exists between the
U.S. Constitution and other federal law affecting a judicial swath,
change must happen because impartial justice must protect what is
good. Equal right is impartial justice, not governmental arbitrary
restraint. 28 U.S.C. §2072 may direct proper cause.

Thank you.

With respect to the United States

(nJ*0Z'I/Oi

Antonia/W. Shields,(^pro se} PO Box 195,
Saratoga Springs, NY 12866

315. 368.4415
page 5 of 5
*?

Rachel A. Petryna
Notary Public State of New York
No. 01PE6107354
Qualified In Saratoga County
Commission Expires March 2S, 20'2o

rr

I verify under penalty of perjury under the laws of the United States
of America that the foregoing is true and correct.
Executed on

fG,2*zo. February 10, 2020
J

7

V

XJ2.

'

Antonia W. Shields, pro se

POBox 195
Saratoga Springs, NY 12866
315.368.4415
Rachel A. Petryna
Notary Public State of New York
No. 01PE6107354
Qualified In Saratoga County
Commission Expires March 29, 20^>

A

i

I

j'f

rA

v-

i

t-z
S

I

Antonia W. Shields, pro se
PO Box 195
*

Saratoga Springs,-NX-12866
(315) 368-4415

ri

i

I

;
;

1

S'

k

i

